December 4, 2009

VINCENT H. DEVITO, JR.
VICE PRESIDENT, CONTROLLER

SUBJECT:           Audit Report – Use of No-Fee Money Orders Follow-Up Audit
                   (Report Number FF-AR-10-033)

This report presents the results of our fiscal year (FY) 2009 follow-up audit of the
U.S. Postal Service’s use of no-fee money orders (Project Number 09BO017FF000).
The objective of our audit was to determine whether significant risk related to the
misuse of no-fee money orders for local purchases by individual post offices continues
to exist. The report is self-initiated and addresses financial risk. See Appendix A for
additional information about this audit.

Conclusion

Our audit disclosed continued misuse of no-fee money orders by individual post offices
nationally. Generally, we noted that no-fee money order values in the Enterprise Data
Warehouse (EDW) were accurate and supported by documentation in the units, and
units posted transactions to the correct account identifier code (AIC). Similar to the
issues identified in our prior report,1 this audit disclosed that personnel used no-fee
money orders for convenience when other payment methods were prescribed and, in
isolated instances, to commit fraud. In addition, employees did not maintain adequate
documentation to support the use of no-fee money orders and input incorrect reason
codes when processing transactions. Nationwide, we determined that units have
misused over $4.86 million in no-fee money orders over the last 24 months. See
Appendix C for a break out of the monetary impact.

No-Fee Money Orders Were Misused

Unit employees incorrectly used no-fee money orders when other payment methods
were prescribed by policy, used no-fee money orders for convenience, and, at times,
used them to commit fraud. This occurred because employees disregarded no-fee
money order guidelines and supervisors did not adhere to daily closeout procedures
which would have detected misuse. In addition, there are no automated controls in the
Point-of-Service (POS) system to help ensure that employees properly enter the reason
code, ensure compliance with the policy, and reduce fraud risk.

1
    Use of No-Fee Money Orders (Report Number FF-MA-08-001, dated July 21, 2008).
Use of No-Fee Money Orders                                                    FF-AR-10-033
 Follow-Up Audit


While we noted a decrease in non-compliance with Postal Service policies for use of no-
fee money orders since our prior audit, we continue to have concerns with the overall
level of non-compliance that remains on a national basis. Until management takes
sufficient action, improper use of no-fee money orders increases the risk of impropriety
and decreases the transparency of unit disbursements. See Appendix B for our
detailed analysis of this topic.

We recommend the vice president, controller, in coordination with the vice president,
Delivery and Post Office Operations:

1. Instruct area and district management to provide training to retail associates and
   local unit management on the use of reason codes, payment processes, and
   closeout procedures.

2. Reinforce procedures regarding the proper use of no-fee money orders in readily
   accessible messaging to sales and service associates.

3. Create a change in Point-of-Service to require supervisory approval in order for a
   no-fee money order to be issued or develop other controls that would enhance
   supervisory oversight of the issuance of no-fee money orders.

Management’s Comments

Management agreed with our findings and recommendations and stated in their
response that employees need further training in the proper use of no-fee money
orders. Management will develop a special training module and disseminate it to the
field. The plan is to implement this training no later than July 31, 2010. In addition,
Retail Digest will publish an article reinforcing proper use of no-fee money orders. To
address the change in the POS System, management agreed an additional control was
needed and stated it would submit a cost estimate to Retail Equipment for
implementation of a supervisory approval. However, implementation is subject to
funding approval. In supplemental correspondence, management clarified they will
implement these latter two actions by January 31, 2010. See Appendix D for
management’s comments, in their entirety.

Transactions Were Not Properly Supported or Documented

Of the 35 statistically selected units we reviewed, 18 were processing local payments
and refund disbursement without sufficient supporting documentation. Based on our
testing, we noted that no-fee money order values matched the values in the EDW and
units posted transactions to the correct AICs. However, management did not always
verify that documentation supported transactions or follow daily closeout procedures, as
required. See Appendix B for our detailed analysis of this topic.

We recommend the vice president, controller, in coordination with the vice president,
Delivery and Post Office Operations:



                                            2
Use of No-Fee Money Orders                                                       FF-AR-10-033
 Follow-Up Audit


4. Instruct local units to maintain supporting documentation for no-fee money order
   transactions for the required retention period.

Management’s Comments

Management agreed with our finding and recommendation and stated their response to
recommendations 1 and 2 will address this item. Corrective action will be completed
July 31, 2010.

Use of No-Fee Money Orders is Unique to the Postal Service

We received comments from two large nationwide private companies and two
government organizations with offices throughout the country (including rural areas) and
noted they do not use money orders to make any type of internal purchase or employee
payment. Rather, local and emergency purchases are processed through pre-
established purchase orders or company credit cards. Salary and travel advances are
prohibited and payroll discrepancies are processed through direct deposit. Thus, the
use of money orders for these circumstances is unique to the Postal Service. Due to
the increased risk resulting from misuse and non-compliance related to no-fee money
orders, and given the availability of more preferred and convenient payment methods
(including SmartPay 2 purchase cards and direct deposit), additional restrictions
governing the use of no–fee money orders are warranted.

We recommend the vice president, controller:

5. Revise Postal Service policy to severely restrict the use of no-fee money orders.

Management’s Comments

Management agreed with our finding and recommendation and stated they will evaluate
a change to the current $500 threshold after assessing the impact of the change on the
scanning and imaging and accounts payable process. Management will complete the
evaluation by no later than December 31, 2009. In addition, a new Narrowcaster report
will be developed no later than July 31, 2009, and sent to retail office, district, and area
managers for all no-fee money orders that exceed $500, with the exception of salary
advances and damaged money order replacement.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report. The OIG considers
recommendations 1, 2, 3, and 4 significant, and therefore requires OIG concurrence
before closure. Consequently, the OIG requests written confirmation when corrective
actions are completed. These recommendations should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.



                                             3
Use of No-Fee Money Orders                                                                       FF-AR-10-033
 Follow-Up Audit


Analysis of No-Fee Money Order Usage from August 2007 to July 2009

Based on our analysis of data from August 2007 to July 2009, we have not seen
considerable changes in the number of no-fee money orders issued; however, we did
note operational improvement in the reduction of no-fee money orders used for
disbursements that exceeded the $500 threshold prescribed by policy during that same
time period. While we have seen progress, non-compliance with Postal Service policies
remains a concern nationally, with units having issued over $4.66 million2 in no-fee
money orders over the last 24 months in violation of Postal Service policies. See
Appendix B for our detailed analysis of this topic.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John Wiethop, director, Field
Financial – Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Dean J. Granholm
    Jack L. Meyer
    Stephen J. Nickerson
    Richard W. Rudez
    Bill Harris




2
 This amount excludes non-compliance transactions from March 1 through May 31, 2009, that we discovered during
our audit of the 35 sampled sites.


                                                      4
Use of No-Fee Money Orders                                                                             FF-AR-10-033
 Follow-Up Audit


                                APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service, unlike other federal agencies, issues no-fee money orders to pay
for certain nonrecurring items, including salary3 and travel4 advances, replacement
money orders,5 and local purchases. The Postal Service has established a preferred
method of paying recurring expenses, with the no-fee money order being the least
preferred method. As stated in Postal Service policy, no-fee money orders are not to
exceed $500 and are to be used for one-time, emergency payments to a vendor who is
not listed in the eBuy system and does not accept the SmartPay 2 purchase card. The
hierarchy of methods for local purchases follows this preferential order.6

         Payments via the eBuy system

         Payments via the SmartPay 2® purchase card

         Invoice payments – Postal Service (PS) Form 8230, Authorization for Payment,
         or PS Form 8232, Payment for Personal Services Contractors, and processed
         through the Accounts Payable System

         Local payments – Cash for emergency one-time expenses, not to exceed $25,
         and no-fee money orders for emergency one-time local expenses, not to exceed
         $500

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether significant risk related to the
misuse of no-fee money orders for local purchases by individual post offices continues
to exist. Specifically, we determined whether:

         Transactions were processed using the correct payment method and reason
         code description.

         Transactions were valid and supported with the proper documentation.

         The unit no-fee money order value matched the value on the EDW report.

3
  Postal Service policy allows the use of no-fee money orders for a salary advance when an employee receives a
payroll check that is less than the amount due, or when the payroll register does not show that a check was issued to
the employee.
4
  Postal Service policy allows the use of no-fee money orders for last-minute official travel (less than 2 weeks in
advance) when there is not enough time for an employee to receive a check from the St. Louis Information
Technology/Accounting Service Center. The employee may request an emergency travel advance not to exceed
$500.
5
  Postal Service policy allows the use of no-fee money orders to replace customer money orders that are mutilated or
damaged.
6
  Handbook F-101, Field Accounting Procedures (FAP), Section 19-1.1, January 2009.


                                                          5
Use of No-Fee Money Orders                                                    FF-AR-10-033
 Follow-Up Audit



       Units posted transactions to the correct AIC.

To accomplish our objective, we compared 893 no-fee money order disbursements from
the EDW to supporting documentation located at the unit for disbursements issued from
March 1 through May 31, 2009. We extracted data for 74,669 no-fee money orders
issued in excess of $500 and the related PS Form 1412, Daily Financial Report, data
from the EDW. We analyzed the disbursement activity to determine whether the no-fee
money order violated Postal Service policy. We also evaluated the money order value,
reason code (description), and AIC charged and the method used to refund or pay the
transaction. We interviewed employees and reviewed documents to determine whether
there was a potential for fraud.

We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying computer records to source
documents. Although we could not rely on the reason code information due to input
errors, the data for amount and AIC was reliable. We used Postal Service instructions,
manuals, policies, and procedures as criteria to evaluate internal controls and data
reliability. We also evaluated whether the internal control structure over financial
reporting and safeguarding of assets was implemented and functioning as designed.
We interviewed Postal Service management and employees at the 35 statistically
selected sites.

We contacted five private and three governmental organizations to gain an
understanding of how other entities process local and emergency purchases and salary
and travel advances. We contacted these organizations because they have a
nationwide presence, including small towns and rural areas, and they sell money orders
as part of their business. We received comments from two private and two government
organizations and have included the responses in our report.

We conducted this audit from June through December 2009 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management officials on October 20, 2009, and included their
comments where appropriate.




                                            6
Use of No-Fee Money Orders                                                      FF-AR-10-033
 Follow-Up Audit


PRIOR AUDIT COVERAGE

We conducted three audits that disclosed issues related to no- fee money orders in the
past 3 years. Management agreed with our findings and recommendations and
implemented corrective action.


                                                             Monetary
     Report Title        Report Number   Final Report Date    Impact      Report Results
Fiscal Year 2009         FF-AR-09-213     August 20, 2009     $6,410    The unit made three
Financial Installation                                                  payments with no-fee
Audit – xxxxxxxxx x x                                                   money orders for
xxxxxxxxxxxxx                                                           cleaning services
xxxx                                                                    during May 2009
                                                                        totaling $1,950.
Fiscal Year 2009 –       FF-AR-09-200      July 23, 2009     $166,094   The x x x x x x x x x x
Phoenix Financial                                                       x x x x x x could not
Risk Audit                                                              provide supporting
                                                                        documents for 27 no-
                                                                        fee money order
                                                                        transactions totaling
                                                                        $22,152. The x x x x
                                                                        x x x x x x x x could
                                                                        not provide
                                                                        documentation to
                                                                        support five no-fee
                                                                        money order
                                                                        transactions totaling
                                                                        $2,716.
Fiscal Year 2008 –       FF-MA-08-001      July 21, 2008       N/A      Local post offices
Use of No-Fee Money                                                     continued to
Orders                                                                  inappropriately use
                                                                        no-fee money orders as
                                                                        a convenient payment
                                                                        method for purchases
                                                                        when other payment
                                                                        methods were required.




                                              7
Use of No-Fee Money Order                                                                      FF-AR-10-033
 Follow-Up Audit


                              APPENDIX B: DETAILED ANALYSIS

No-Fee Money Orders Were Misused

Unit employees misused no-fee money orders for convenience and, at times, to commit
fraud, when other payment methods were prescribed.

No-Fee Money Orders Used When Other Payment Methods Were Prescribed

Unit employees incorrectly used no-fee money orders when other payment methods
were prescribed by policy. For example, employees used no-fee money orders to pay
for recurring services, injury compensation payments, and automated postal center
(APC) refunds, which were not emergency purchases and exceeded the $500 limit
established by Postal Service policy.7 Unit management was aware of the requirement
that recurring services on a contract be paid through Accounting Services.8 However,
they had not submitted the documentation to begin the process or the documentation
was returned because of improper submission. In addition, one area manager
was aware that all but one unit incorrectly processed injury compensation payments;
however, the manager never asked the units to stop the practice. As a result of our
detailed testing, we identified $68,681 in unrecoverable supported questioned costs.
Further, the Postal Service has an increased risk of inaccurately reporting payments for
contract wages on Internal Revenue Service Form 1099, Miscellaneous Income, as no-
fee money orders are not tracked as payments for tax reporting purposes.

No-Fee Money Orders Were Used For Convenience

We determined district and unit management authorized the use of no-fee money
orders as a convenient method of payment. In one instance, a local unit manager
authorized the use of no-fee money orders to distribute revenue to other units in the
district that provided employees to assist at a passport event. The hosting unit records
the revenue at the end of the day and later allocates a portion of the total revenue
collected to the other units that assisted. Management informed us that issuing no-fee
money orders is more convenient than processing journal voucher entries. In another
instance, the district manager authorized the use of no-fee money orders to purchase
tickets for an annual luncheon sponsored by the Department of Labor. Overall, these
occurrences were the result of employees not following Postal Service policy governing
no-fee money order usage. As a result of our detailed testing, we will report $74,969 as
unrecoverable supported questioned costs.




7
 FAP, Section 19-1.1, January 2009.
8
 The San Mateo, CA, Contract Cleaner Unit/Contractual Payables Branch Accounting Services issues payments
directly to the contract cleaner for recurring services on local agreements that cover 1 year or longer.


                                                      8
Use of No-Fee Money Orders                                                    FF-AR-10-033
 Follow-Up Audit


No-Fee Money Orders Were Used for Fraudulent Activity

We identified one employee who used $26,246 in no-fee money orders to steal Postal
Service funds. Specifically, one employee xxxxxxxxxxx xxxxxxxxxxxxxxxxxxx xxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxx xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

Transactions Were Not Properly Supported or Documented

We determined local payments and refunds were processed at 18 units without
sufficient supporting documentation. Specifically, we noted that 64 of 893 transactions
we reviewed did not contain supporting documentation. This occurred because clerks
issuing no-fee money orders were not always following policy, and unit management
was not detecting the noncompliance and requesting the missing support since they did
not conduct daily closeout procedures. The transactions were for money order
replacements, copy machine reimbursements, salary and payroll adjustments,
indemnity claims, Express Mail, spoiled unused customer meter strips, office supplies,
local travel, extra service fees, non-postal revenue, and retail and packaging products.
Although these transactions are valid uses of no-fee money orders, we could not verify
they were for the purpose noted since there was no supporting documentation.
Because we were unable to verify whether the transactions were valid, we consider
$25,895 as unsupported questioned costs.

The following table represents the results of our individual testing conducted through
letters of inquiry and site visits. We have summarized the issues by Postal Service
area.




                                            9
Use of No Fee Money Order                                                                                                                                               FF-AR-10-033
 Follow-Up Audit


                                                  Non-Compliance With No-Fee Money Order Usage




                                                          redacted


                                                                     redacted


                                                                                redacted


                                                                                           redacted


                                                                                                      redacted



                                                                                                                 redacted


                                                                                                                            redacted


                                                                                                                                       redacted


                                                                                                                                                  redacted
                                 9
                     Description                                                                                                                                       Criteria



                                               Transactions Were Processed Using the Incorrect Payment Method
Employees at one unit incorrectly used no-fee                                                         X                                                      FAP, Section 20-8
money orders to pay injury compensation totaling
$13,591.
Seven units incorrectly processed 22 withdrawals        X      X       X               X                      X                                    X         FAP, Section 11-6.8
totaling $14,351 from permit, postage due, and
business reply mail trust accounts using no-fee
money orders.
Unit personnel at two units incorrectly processed       X                                                     X                                              FAP, Section 21-5
five APC refunds totaling $714 using no-fee
money orders.
Personnel at four units incorrectly processed 38        X                                                                                                    FAP, Section 20-9.2
payments to contract cleaners totaling $21,350
using no-fee money orders.
The Postal Inspection Service deposited cash in         X                                                                                                    FAP, Section 9-1-10
the amount of $15,242 at a retail unit and
requested the unit provide 16 no-fee money
orders in that same amount. The transaction was
completed without providing documentation to the
unit and violated Postal Service operation policy.




9
    An “X” in the column indicates the area where we identified the deficiency.


                                                                                           10
Use of No Fee Money Order                                                                                                                                                 FF-AR-10-033
 Follow-Up Audit


                                                 Non-compliances With No-Fee Money Order Usage




                                                           redacted


                                                                      redacted


                                                                                 redacted


                                                                                             redacted


                                                                                                        redacted


                                                                                                                   redacted


                                                                                                                              redacted


                                                                                                                                         redacted


                                                                                                                                                    redacted
                   Description                                                                                                                                           Criteria



                                               Transactions Were Processed Using the Incorrect Payment Method
Personnel at one unit incorrectly issued a no-fee                                                                                                              FAP, Section 21-1
money order (totaling $150) to correct a                X
customer’s error.
One unit paid an invoice for water service in the                                                                                                              Material Logistics Bulletin,
                                                        X
amount of $270.                                                                                                                                                MLB-CO-07-009
One unit incorrectly refunded a customer for a                                                                                                                 www.usps.com/clicknship and
                                                                                               X
Click-N-Ship® transaction totaling $30.                                                                                                                        click on the MyAccount link
Personnel at three units processed three                                                                                                                       FAP, Section 9-2.3
debit/credit overcharges totaling $210 for
                                                                       X                              X
customer purchases and three post office box
errors caused by an associate.
                                                          No-Fee Money Orders Were Used For Convenience
At the district manager’s direction, one unit issued                     X                                                                                     FAP, Section19-1.4
32 no-fee money orders totaling $20,790 for the
purchase of employee awards luncheon tickets
sponsored by the Department of Labor.
One unit in xxxxxxxxx issued 56 no-fee money                                                                         X                                         FAP, Section 19-1.5
orders as a way to allocate $54,179 in passport
revenue to other units that provided staff to assist
with the acceptance of passport processing.
                                                       No-Fee Money Orders Were Used For Fraudulent Activities
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                        X                                                                                                   FAP, Sections 16.5-5 and 17-5
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxx xx xx We will report
$26,246 as recoverable questioned costs.




                                                                                            11
Use of No Fee Money Order                                                                                                                                          FF-AR-10-033
 Follow-Up Audit


                                             Non-compliances With No-Fee Money Order Usage




                                                   Redacted


                                                              Redacted


                                                                         Redacted


                                                                                     Redacted


                                                                                                Redacted


                                                                                                           Redacted


                                                                                                                      Redacted


                                                                                                                                 Redacted


                                                                                                                                            redacted
                  Description                                                                                                                                     Criteria



                                                               Transactions were Unsupported
Unit personnel did not always properly document,     X         X       X      X       X      X                          X          X          X        FAP, Sections 6-7.3, 10-3.2,
support, or process 64 no-fee money orders                                                                                                             19-1.5 , 20-1, 21-3, and 23-3;
totaling $25,895.                                                                                                                                      Domestic Mail Manual,
                                                                                                                                                       Sections 503, 604.9.3.2, and
                                                                                                                                                       604.9.5, updated August 3,
                                                                                                                                                       2009; Handbook F-15, Travel
                                                                                                                                                       and Relocation, Section 7-
                                                                                                                                                       1.1.1.3b, February 2004,
                                                                                                                                                       updated with Postal Bulletin
                                                                                                                                                       revisions, through
                                                                                                                                                       December 20, 2007




                                                                                    12
Use of No Fee Money Order                                                                                                                          FF-AR-10-033
 Follow-Up Audit


Analysis of No-Fee Money Order Use from August 2007 to July 2009

In a previous report,10 we noted that local post offices inappropriately used no-fee
money orders as a convenient payment method for purchases when other payment
methods were required. As a result, the Postal Service reinforced policy related to the
use of no-fee money orders and implemented reason codes in the POS to track the
reason no-fee money orders were issued.

When analyzing data from August 2007 to July 2009, we have not seen considerable
changes in the number of no-fee money orders issued (see Chart 1); however, we did
note operational improvement in the reduction of no-fee money orders used for
disbursements that exceeded the $500 threshold prescribed by policy during that same
period (see Chart 2). We believe we can attribute this reduction to the recent system
change in POS which forces the retail associate to enter a specific reason code into
POS before issuing no-fee money orders in excess of $25.11


              Total No Fees Issued                                                              No Fee Policy
           70,000
           60,000
                                                                                                 Violations
           50,000                                                                   500
           40,000                                                                   400
           30,000                                                                   300
           20,000                                                                   200
           10,000                                                          Count    100
                0                                                                     0                                                          Count
                               Jan 2008




                                                                                          Aug 2007
                                          Jun 2008




                                                                                                                           Nov 2008
                                                                                                                                      Apr 2009
                    Aug 2007




                                                                Apr 2009
                                                     Nov 2008




                                                                                                     Jan 2008
                                                                                                                Jun 2008




                                      Chart 1                                                                         Chart 2

While we have seen progress, non-compliance with Postal Service policies remains a
concern nationally, with units having issued nearly 75,000 no-fee money orders totaling
$4.66 million12 over the last 24 months in violation of Postal Service policies.




10
   Fiscal Year 2008 – Use of No-Fee Money Orders (Report Number FF-MA-08-001, dated July 21, 2008).
11
   As noted in our report, the reason codes were not always correctly entered into the POS.
12
   This amount excludes non-compliance transactions from March 1 through May 31, 2009, that we discovered during
our audit of the 35 sampled sites.


                                                                               13
Use of No Fee Money Order                                                                              FF-AR-10-033
 Follow-Up Audit


                                 APPENDIX C: MONETARY IMPACT

                         Finding                       Impact Category                  Amount
              Transactions were processed         Unrecoverable Supported                   $68,681
                                                                   13
              using the incorrect payment         Questioned Costs
              method.
              No-fee money orders were            Unrecoverable Supported                     74,969
              used for convenience.               Questioned Costs
              No-fee money orders were            Recoverable Supported                       26,246
                                        14                         15
              used to perpetrate fraud.           Questioned Costs
              Transactions were                   Unrecoverable Unsupported                   25,895
                                                                   16
              unsupported.                        Questioned Costs
              Analysis of no-fee violations       Unrecoverable Unsupported               4,660,041
              issued August 2007 through          Questioned Costs
                         17
              July 2009.

                                                  TOTAL                                  $4,855,832




13
   Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.
14
   Total value includes 31 fraudulent cash transactions.
15
   Recoverable costs that are unnecessary, unreasonable, or an alleged violation of laws or regulations.
16
   Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation. These costs
are also not supported by adequate documentation.
17
   This amount excludes non-compliance transactions from March 1 through May 31, 2009, that we discovered during
our audit of the 35 sampled sites.


                                                        14
Use of No Fee Money Order                                 FF-AR-10-033
 Follow-Up Audit


                      APPENDIX D: MANAGEMENT’S COMMENTS




                                     15
Use of No Fee Money Order        FF-AR-10-033
 Follow-Up Audit




                            16
Use of No Fee Money Order        FF-AR-10-033
 Follow-Up Audit




                            17
Use of No Fee Money Order        FF-AR-10-033
 Follow-Up Audit




                            18
